WAIVER

Supreme Court of the United States

No. 21-807

Baker, Donelson, Bearman, Caldwell & v. John J. Shufeldt
Berkowitz, P.C.
(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court

Please check the appropriate box:
x Tam filing this waiver on behalf of all respondents,

GJ only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

   

Please check the appropriate box:

>< 1am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System, ‘The system will
prompt you to enter your appearance first.)

  

0 Tam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Zyurt, Attn: ae 1 First Street, NE, Washington, D.C, 20548).

 
 
  

Signature

owe INGZ)

(Type or print) Name _August C. Winter
Mr. O Ms. O Mr:

Firm __Law Office of August C. Winter _

  

 

   

Address TWO Brentwood Commons, Suite 150, 750 Old Hickory Blvd

sity & State _ Brentwood, TN ip 37027
Phone 615-371-6152 Bmail_ SWinterlawoffice@comecast.net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce: Mr. William Scott Sims
Sims Funk, PLC
3322 West End Ave, Suite 200
Nashville, TN 37203
